•

VI 1.1

No.
Nancy D-Massenburg
Petitioner
v.
Innovative Talent Solutions, Inc.
Respondent

Lee Air Conditioners, Inc.
Respondent

Nancy D-Massenburg, Appellant Pro Se.; Katie Weaver
Hartzog, Katherine Marie Barber-Jones, HARTZOG LAW
GROUP, Cary, North Carolina; Dieter Mauch, HEDRICK
MURRAY BRYSON KENNETT & MAUCH, PLLC, Durham,
North Carolina, Appellees.
INTRODUCTION TO APPENDIX
Because supoena's for discovery information were not
enforced (District Court DE 117, 117-1 Motion to Compel),
extension of time for dispositive motion denied (DE 110 and
exhibits); FRCP 26 (b)(1), Patten v Hall, No. 5:15-CT-3118-FL,
2017 WL 6062258, at*4 (E.D.N.C. Dec 7, 2017) and Massenburg
was not allowed by one of the clerks of the United States District
Court for the Eastern District of NC to file my Rule 56 Affidavit
"un-notarized" (App. 8 pg 88-95) and have a Notice of Deficiency
issued to make the correction, the district court granted ITS'

(Th

Summary Judgement and disregarded "evidence" which presented
genuine issues of material facts with "each" of Lee and ITS'
defensive reasons which also raised the disparate treatment issue
and proved each defense to be false. See: Notice to Counsel
regarding: DE 150 and Notice of Deficiency regarding ITS: DE
101.
My Petition for Writ of Certiorari points this court to
. genuine issues of evidentiary and material facts and ITS' practice of
disqualifying formerly convicted, qualified minority applicants
during the registration process on sight of any conviction, which
removes the opportunity for any conditional offer of employment
to made. All of which were identified in my District Court DE 122
and 123-Opposition to ITS Motion for Summary Judgement.
The Fourth Circuit Court of Appeals affirmed and
erroneously found that facts and legal contentions were adequately
presented in the materials before the court and argument would not
aid the decisional process. See: App 3, Massenburg v. Innovative
Talent Sols., Inc., 2019 U.S. Dist. LEXIS 17298 (E.D.N.C., Feb. 4,
2019-).
The Fourth Circuit Court of Appeals also found claims
against Lee Air to be time-barred with no consideration given to
the ITS strategically created technicality of withholding identity of
Lee Air at the EEOC stage from January 2015 thru October 2016
(DC/DE 35-1,2,3), identity also sought in lower court early on
pursuant to Fed. R. Civ. P. 26(a)(1)(A) prior to discovery, (DE 10).
Neither court applied the identity of interest test previously applied
by the Fourth Circuit in Olvera-Morales v. Ina Labor Mgmt.
Corp., No. 1:05CV00559, 2008 WL 939180, at *1-2 (M.D.N.C.
Apr.4,2008) to determine if Lee's interest was represented by ITS
during the EEOC stage. DE 114-3 page 7 (Defendants Service

Agreement).
Index to Appendix
US Court of Appeals for the Fourth Circuit-DE 36,
Order on Petition for Hearing En Banc, Feb 25,
2020
APP. 1 (pgs 1-2)
US Court of Appeals for the Fourth Circuit-DE 30-1
Pet. for Rehearing En Banc,
Oct. 22, 2019
APP. 2 (pgs. 3-30)
US Court of Appeals for the Fourth Circuit-DE 28,
Opinion, Oct. 8,2019
APP. 3 (pgs. 31-33)
United States District Court for the Eastern District of NC-DE 176,
Order, Feb.4, 2019
APP. 4 (pgs. 34-64)
United States District Court for the Eastern District of NC, DE
177, Judgement, Feb. 4,
2019
APP. 5 (pg 65)
US District Court for the Eastern District of NC, DE 125,
Magistrate's order, May 15, 2019
APP. 6
(pg. 66-86)
EEOC Guidance 915.002-Discriminatory Assignment
Practices @ Allocation of Remedies
App.7 (pg
87)
Massenburg's rejected Affidavit for Opposition to ITS, Inc.
Motion for Summary Judgement
App. 8 (pg

88-95)

APP. 1
-1USCA4 Appeal: 19-1192 Doc: 36 Filed: 02/25/2020 Pg: 1
of 2-FILED: February 25, 2020-UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT

No. 19-1192 (5:16-cv-00957-D)

NANCY MASSENBURG
Plaintiff - Appellant
v.
INNOVATIVE TALENT SOLUTIONS, INC.; LEE
AIR CONDITIONERS, INC.
Defendants - Appellees
and
ASHLEY HUNT, d/b/a Innovative Talent
Solutions; UNNAMED CLIENT
DISCRIMINATORY HIRING POLICY,
enforced for, by Ashley; KIM KORANDO, ITS,
Inc. legal representation
Defendants

APP. 1
-2ORDER
The court denies the petition for rehearing
and rehearing en Banc. No judge requested a poll
under Fed. R. App. P. 35 on the petition for
rehearing en bane.
Entered at the direction of the panel:
Judge Wilkinson, Judge Quattlebaum, and
Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk
Case 5:16-cv-00957-D Document 184 Filed 02/25/20 Page 1
of 2

App. 3
-31USCA4 Appeal: 19-1192 Doc: 28 Filed: 10/08/2019 Pg: 1 of 3
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1192
NANCY MASSENBURG,
Plaintiff - Appellant,
v.
INNOVATIVE TALENT SOLUTIONS, INC.; LEE AIR
CONDITIONERS, INC.,
Defendants - Appellees,
and
ASHLEY HUNT, d/b/a Innovative Talent Solutions; UNNAMED
CLIENT DISCRIMINATORY HIRING POLICY, enforced for, by
Ashley; KIM KORANDO, ITS, Inc. legal representation,
Defendants.
Appeal from the United States District Court for the Eastern
District of North Carolina, at Raleigh. James C. Dever III, District
Judge. (5 :16-cv-00957-D)
Submitted: September 26, 2019 Decided: October 8, 2019

App. 3
-32Before WILKINSON and QUATTLEBAUM, Circuit Judges, and
SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Nancy Massenburg, Appellant Pro Se. Katherine Marie BarberJones, HARTZOG LAW GROUP, Cary, North Carolina; Katie
Weaver Hartzog, Katie Terry Jefferson, CRANFILL, SUMNER &
HARTZOG, LLP, Raleigh, North Carolina; Dieter Mauch,
HEDRICK MURRAY BRYSON KENNETT & MAUCH, PLLC,
Durham, North Carolina, for Appellees.
Unpublished opinions are not binding precedent in this circuit.
PER CURIAM:
Nancy Massenburg appeals the district court's order granting
Innovative Talent Solutions, Inc.'s ("ITS") motion for summary
judgment, granting Lee Air Conditioners, Inc.'s ("Lee Air")
motion to dismiss, granting in part ITS's motion to strike
Massenburg's second amended complaint, dismissing as moot
Massenburg's motion to compel, striking Massenburg's
supplemental claims, dismissing as moot Defendants' remaining
motions, and denying Massenburg's remaining motions. We have
reviewed the record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court.
Massenburg v. Innovative Talent Sols., Inc., No. 5:16-cv-00957-D
(E.D.N.C. Feb. 4, 2019).* We dispense with oral argument
because the facts and legal contentions are adequately presented in

App 3
-33the materials before this court and argument would not aid the
decisional process.
AFFIRMED
* The fact that Massenburg filed her Equal Employment
Opportunity Commission charge against Lee Air after she added
Lee Air as a Defendant in the civil action was not a sufficient
ground on which to dismiss the discrimination claim brought
against Lee Air pursuant to Title VII of the Civil Rights Act of
1964 (Title VII), as amended, 42 U.S.C.A. §§ 2000e to 2000e-17
(West 2012 & Supp. 2018). See Henderson v. E. Freight Ways,
Inc., 460 F.2d 258, 260 (4th Cir. 1972) (providing that, when rightto-sue letter is issued prior to dismissal of case, it "validate[s] the
pending action"). However, we conclude that any error was
harmless because Massenburg's Title VII claim against Lee Air is
time-barred. See 42 U.S.C.A. § 2000e-5(e)(1).
Case 5:16-cv-00957-D Document 181 Filed 10/08/19

(Th

App. 4
-34IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF NORTH CAROLINA WESTERN
DIVISION
Case 5:16-cv-00957-D Document 176 Filed 02/04/19
ORDER
On February 2, 2017, Nancy Massenburg
("Massenburg" or "plaintiff), proceeding prose and in
forma pauperis, filed a complaint against Ashley Hunt,
d/b/a Innovative Talent Solutions, Inc. ("ITS") and an
unnamed client of ITS for whom a discriminatory hiring
policy was enforced ("Unnamed Client"), seeking relief
under Title VII of the Civil Rights-Act of 1964 ("Title
VII"), as amended, 42 U.S.C. § 2000e et [D.E. 7]. On
May 3, 2017, Massenburg filed a first amended
complaint against Ashley Hunt ("Hunt"), Kimberly
Korando ("Korando"), and the Unnamed Client [D.E.
33].1 On May 30, 2018, while her motion for leave to file
a second amended complaint was pending [D.E. 97],
Massenburg filed a second amended complaint that
replaced the Unnamed Client with Lee Air Conditioners,
Inc. ("Lee Air"; with ITS, "defendants") as a defendant and
alleged new claims against ITS [D.E. 128].
On April 20, 2018, ITS moved for summary
judgment [D.E. 112], filed a statement of material facts
[D.E. 113], and filed a memorandum in support [D.E.
115]. On May 14, 2018,

Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 1 of 26

App. 4
-35I On August 2, 2017, this court dismissed
Massenburg's
claims against Hunt and Korando with
prejudice [D.E. 64]. Massenburg responded in opposition
[D.E. 122], filed an opposing statement of material facts
[D.E.123], and filed other supporting documents [D.E. 124].
On June 14, 2018, ITS moved to strike Massenburg' s second
amended complaint [D.E. 134], and ITS filed a memorandum
in support [D.E. 135]. On June 19, 2018, Massenburg
responded in opposition [D.E. 137]. On July 3, 2018, ITS
replied [D.E. 145]. On July 27, 2018, Lee Air moved to
dismiss Massenburg's second amended complaint for lack of
subject-matter jurisdiction and for failure to state a claim upon
which relief can be granted [D.E. 154]. On August 20, 2018,
Massenburg responded in opposition [D.E. 161]. On
September 4, 2018, Lee Air replied [D.E. 165]. Finally, on
April 18, 2018, Massenburg moved to extend the deadline for
dispositive motions established in this court's scheduling order
of November 6, 2017 [D.E. 110]. On May 8, 2018, ITS
responded in opposition [D.E. 121].
As explained below, the court grants ITS's motion
for summary judgment, grants ITS's motion to strike, and
grants Lee Air's motion to dismiss. The court denies
Massenburg' s motion for leave to file a second amended
complaint, denies Massenburg's motion to file a sur-reply,
denies Massenburg's motion to amend the scheduling order,
and dismisses as moot Massenburg's motion for a protective
order and order to compel. Finally, the court strikes
Massenburg' s latest filing [D.E•171] and dismisses as moot
defendants' motion to strike.

Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 2 of 26

App 4
-3 6I.
ITS is an employment agency that Hunt owns and
operates. See [D.E. 113] 1 1; Hunt Aff. [D.E. 114-3] 12. As
part of an initial screening process for candidates, ITS
requires applicants to complete an online application.See
[D.E. 113] 11 2-3. ITS provides all candidates with a
notification and release form that outlines ITS's policies on
background checks. See id. 14. ITS does not conduct a
background check on any candidate until a client extends a
conditional job offer to that candidate and the candidate has
accepted it. See id.16; Hunt Aff. [D.E. 114-3]14. No ITSsponsored candidate has been disqualified from an accepted offer
because of full disclosure of the candidates criminal history. Les.
[D.E. 1 1 3], 7; [D.E. 114-2] 3. LeeAir contracted with ITS to obtain
referrals for qual ifi ed candidates for employment with • Lee Air. See
[D.E. 113], 11; Hunt Aff. [D.E. 114-3], 3. In 2014, Lee Air
requested candidates for a dispatcherposition and asked that the
candidate have atleastoneyearofdispatcherexperience,
preferably in the HVAC industry. See [D.E. 113],12; Hunt Aff.
[D.E. 114-3], 5. ITS identified onehighlyqualifiedcandidate,
AngelaV.,who had twoyears ofdispatcherexperiencein theHVAC
industry. Sgs [D.E. 113]„ 13-15. ITS identified two other qualified
candidates who met LeeAir's requirements. See id. 16. One of these
candidates, Natasha H., was an African-Americanwoman.
See i,d. 17; Hunt Aff. [D.E. 114-3, 7. At the time, ITS did not
intend to refer any other candidates for the position to Lee Air. Les.
[D.E. 113],19. Ultimately, Lee Air hired Angela V. See id, 20.

Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 3 of 26

App 4
-37On October9,2014,beforeLeeAirhiredAngelaV.,an ITS recruiter
named KatherineWhite ("White") contacted Massenburg after
finding Massenbuig's resume online. See id , 21. Massenburg
alleges that White told Massenburg that it was difficult to find a
candidate with dispatcher experience. See id., 22; cf. [D.E. 123] ,
22. White encouraged Massenburg to apply for the Lee Air
position and informed herthat Lee Airwould wanttoconduct a
background check. See [D.E. 113] „ 23, 26. White stated that
the background check would extend for seven years, and
Massenburg indicated that the check would not rai se any issues.
See id.,24. White did notprovide ITS or Hunt with Massenburg'
s resume. See id. , 27.
On October 10, 2014, Massenburg applied online to ITS. See
is:1,28. In her application, Massenburg admitted that she had been
convicted ofassault ofa government official in 1997. See id.Ff29-30.
Later that day, Hunt called Massenburg to tell her n ot to come in for the
interview that White had scheduled because ITS had already identi fled
all the candidatesthatITS intendedtorefer to Lee Air. See id.1131-32.
ITS claims that Hunt did so to save Massenburg time and effort. See
id. Massenburg, however, claims that Hunt told her that Lee Air
would not hire anyone with a conviction. See id. 133; [D.E. 123]
133; [D.E. 114-1] 47-48. Massenburg did not attend the
interview that White scheduled. Leg [D.E. 114-2] 14. Lee Air does
not disqualify candidates with convictions, and Lee Air has hired at
least one candidate with a criminal history. See [D.E. 113]134; Hunt
Aff. [D.E. 114-3] 1 14.

2
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 2 of 26

App 4
-38According to ITS, Hunt bel i eyed thattheotherthree candidates
were m ore qualified than Massenburg forthe Lee Air job. Les [D.E.
113] 140; Hunt Aff. [D.E. 114-3] 111. Unlike Angela V.,
Massenburg lacked dispatcher experience in the HVAC industry and
lacked recent dispatcher experience in any industry. See [D.E. 113] 1
40. Massenburg did not include her dispatcher experience with
Cardinal Cab Company in her application, and she did not submit
her resume to ITS. See id. 1136--39.Massenburg alleges that
two candidates that ITS referred to Lee Air also lacked
dispatcher experience in the HVAC industry. See [D.E. 123] 1 40.
Massenburg believes that she has been turned down for many other
jobs because ofher criminal record, which also includes a conviction
for common law robbery. See [D.E. 113] 1141-42; [D.E. 123] 141.
ITS contends that it does not have a "total exclusionary
requirement" for applicants with criminal histories and that it does
not have any clients, including Lee Air, that would disqualify a
candidate solely because of criminal history. [D.E. 113]118-9(alteration
omitted). ITS also claims that itsclients, includingLeeAir,evaluatea
candidatewithacriminalhistoryholistically. See [D.E.113] 110.
Massenburg responds that ITS's statements are "mere smoke and
mirrors." [D.E. 123] 8,10
II.
Summary judgment is appropriate when, after reviewing the
record as a whole, the court determines that no genuine issue of
material fact exists and the moving party is entitled to judgment
as a matter oflaw. Fed. R. Civ. P. 56(a); Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48 (1986). The party seeking
summary judgment must initially demonstrate the absence of a
genuine issue of material fact or the absence of evidence to
support the nonmoving party's case. Celotex Corp. v. Catrett,
477 U.S. 317, 325(1986).

4
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 4 of 26

App 4
-39Once the moving party has met its burden, the nonmoving
party may not rest on the allegations or denials in its pleading,
Anderson., 477 U.S. at 248-49, but "must come forward with
specific facts showing that there is a genuine issue for trial.".
Matsushita Elec. Indus. Co. v. Zenith Radio Corp..,
475. u.s. 574, 587 (1986) (emphasis and quotation omitted). A
trial court reviewing a motion for summary judgment should
determine whether a genuine issue of material fact exists for trial.
Anderson. 477 U.S. at 249. In making this determination, the
court must view the evidence and the inferences drawn therefrom
in the light most favorable to the nonmoving party. Scott v.
Harris. 550 U.S. 372, 378 (2007).
A genuine issue ofmaterial fact exists if there is sufficient
evidence favoring the nonmoving party for a jury to return a
verdict for that party. Anderson: 477 U.S. at 249. "The mere
existence of a scintillaofevidence in support ofplaintiffs
position [is] insufficient" Id. at 252.; see Beale v. Hardy. 769
F.2d 213, 214 (4th Cir. 1985) ("The nonmoving party, however,
cannot create a genuine issue of material fact through mere
speculation ok the building of one inference upon another.").
Only factual disputes that affect the outcome under substantive
law properly preclude summary judgment. See Anderson., 477
U.S. at 248.
A.
In relevant part, Title VII of the Civil Rights Act of
1964 makes it unlawful for an employer to refuse to hire, or
otherwise to discriminate against, any individual with respect
to that individual's "compensation, terms, conditions, or
privileges of employment, because of such individual's race."

5
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 5 of 26 •

App 4
-4042 U.S.C. §1000e-2(a)(1). An employer also cannot "limit,
segregate, or classify his ... applicants for employment in any
way which would deprive [that individual] of employment
opportunities . . . because of such individual's race." 42 U.S.C. §
2000e-2(a)(2). A Title VII plaintiff can prove discrimination
tqat violates 42 U.S'.C. § 2000e-2(a) in two ways: disparate
treatment and disparate impact. See EEOC v. Abercrombie &
Fitch Stores, Inc., 135 S. Ct. 2028, 2032 (2015); Abeles v.
Metro. Wash. Aft:ports Auth., 676 F. App'x 170,174 (4th Cir.
2017) (unpublished). A "disparate treatment claim requires
proof of discriminatory motive," while a "disparate impact
claim" does not. Abdus-Shahid v. Mayor & Cizy Council
ofBalt.. 674 F. App'x 267, 274 (4th Cir. 2017) (per curiam)
(unpublished). Construing Massenburg's pro se complaint
liberally, Massenburg alleges a Title Vii discrimination claim
under both theories. In Griggs v. Duke Power Co., 401 U.S.. 424
(1971), the United States Supreme Courtfirst recognized
disparate impact liability p.nderTitleV11. See Ricci v.
DeStefano. 557U.S. 557, 577-78 (2009). In 1991, Congress
codified the holding of Griggs in 42 U.S.C. § 2000e2(k)(l)(A)(i). See id. at 578. To prove a disparate impact claim, a
Title VII plaintiff must first show "that an employer uses a
particular employment practice that causes a disparate impact
on the basis of race, color, religion, sex, ornational origin." Id..
see 42 U. S. C. § 2000e-2(k)(1)(A)(i). in other words, a plaintiff
must first identify a particular employment practice that, although
facially neutral, causes a disparate impact on a protected group.
See Connecticut v. Teal., 457 U.S. 440, 446 (1982); Anderson
v. Westinghouse Savannah River Co., 406 F.3d 248, 265 (4th Cir.
2005); Walls v. Cizy of Petersburg. 895 F.2d 188, 191 (4th Cir.
1990); Rocha v. Coastal Carolina Neuropsychiatric Crisis Servs.,
P.A., 979 F. Supp. 2d 670, 681 (E.D.N.C. 2013). A plaintiff
can use statistical evidence to meet this burden.

12
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-41See Anderson, 406 F.3d at 265; Walls, 895 F.2d at 191. If a
plaintiff establishes a prima facie case, an employer can
respond by demonstrating "that the challenged practice is job
related ... and consistent with business necessity." 42 U.S.C. §
2000e-2(k)(1)(A)(i); see Ricci., 557 U.S. at 578; N.A.A.C.P. v.
N. Hudson Reel Fire & Rescue. 665 F.3d 464, 476-77 (3d Cir.
2011); Anderson. 406 F.3d at 265. Even if an employer rebuts
the plaintiffs prima facie case, "a plaintiff may still succeed by
showing that the employer refuses to adopt an available
alternative employment practice that has less disparate impact
and serves the employer's legitimate needs." Ricci., 557 at 578.
In that situation, the plaintiff will have shown that the
employer's alleged business necessity is "mere pretext for
discrimination." Teal. 457 U.S. at 447; Anderson. 406 F.3d at
265.
As for Massenburg's prima facie case, Massenburg must
identify a specific employment practice that caused a disparate
impact to a protected class. Massenburg, however, fails to
identify a particular employment practice concerning
candidates' criminal history. See [D.E. 122] 3-11.
Indeed, Massenburg concedes that she lacks evidence of
ITS's policies. See id. at 3-4. Instead, Massenburg merely
alleges that, on October 10, 2014, Hunt informed her that Lee Air
did not "want anyone with prior convictions." I. at 6. ITS
disputes that it or Lee Air ever had such a policy and asserts that
Lee Air hired at least one person with a conviction, a fact that
Massenburg does not dispute. Les [D.E. 113] ,r34; [D.E. 123],r
34. Furthermore, Hunt denied making this statement to
Massenburg. She [D.E. 114-3] fl 13-15. In any event, even if
Hunt made this statement, the statement concerns Lee Air's
alleged policy, not ITS's policy. Massenburg has not
presented admissible evidence that ITS had an employment

13
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-42policy concerning candidates with convictions. See RoclYb 979
F. Supp. 2d at 681. Viewing the evidence in the light most
favorable to Massenburg, no rational jury could find that ITS had a
particular employment practice concerning candidates with
convictions. Thus, Massenburg' s disparate impact claim fails.
See42 U.S.C.§2000e-2000e-2(k); McNaim v. Sullivan., 929
F.2d 974, 979 (4th Cir. 1991); Walls„ 895 F.2d at 191; cf.
Holder v. City of aleigh, 867 F.2d 823,826 (4th Cir. 1989).
Alternatively, even if Massenburg could identify a
particular employment practice of ITS, Massenburg cannot
establish that this employment practice caused disparate impact
on a protected class. A Title VII plaintiff asserting a disparate
impact must show that the identified employment policy causes a
disparate impact injurious to a protected class. See 42 U.S.C. §
2000e-2(k)(l)(A)(i); Lewis v. City of Chi., 560 U.S. 205, 213
(2010). Generally, a disparate impact plaintiff must
"demonstrate that it is the application of a specific or particular
employment practice thathas created the disparate impact under
attack." Wards Cove., 490 U.S. at 657. Massenburg has failed to
present evidence of causation. agg [D.E. 123] 7-11.
Accordingly, Massenburg has failed to establish a prima facie
disparate impact claim under Title VII. See Lewis, 560 U.S. at
2i3; cf. Reyes v. Waples Mobile Home Park Ltd. P'ship. 903
F.3d 415, 425-29 (4th Cir. 2018).
Alternatively, "when a plaintiff has made out a prima
facie case of disparate impact," the burden shifts to the
defendant to "produc[e] evidence that its employment practices
are based on legitimate business reasons" related to the job in
question. Watson v. Fort Worth Barik:& Trust, 487 U.S. 977, 998
(1988); see Albemarle Paper Co. v. Moody., 422 U.S. 405, 425
(1975); Griggs. 401 U.S. at432; Hardie v. Nat'l Collegate

14
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-43Athletic Ass'n, 876 F.3d 31.2, 319-20 (9th Cir. 2017). If
the defendant does so,-'the plaintiff must show that other policies
could similarly serve the employer's legitimate business
interests without causing the adverse disparate impact on the
protected class. See Watson., 487 U.S. at 998.
ITS argues that it inquires into criminal history on its online
application because it could face liability under North Carolina
law for negligent hiring if it failed to conduct a reasonable
investigation into the background of candidates. Les [D.E. 115]
10. In North Carolina, a negligent hiring claim requires actual
or constructive notice of the employee's "unfitness or bad
habits." Medlin v. Bass, 327 N.C. 587, 590-91, 398 S.E.2d
460, 462 (1990); Taft v. Brinley's Grading Servs., Inc.,
225N.C. App. 502,516, 738 S.E.2d 741, 750 (2013). ITS's
explanation is a legitimate business reason to inquire into an
applicant's criminal history in its online application. Thus, even
if Massenburg established a prima facie disparate impact claim,
ITS has advanced a legitimate business explanation, and
Massenburg has not rebutted ITS's business explanation. See
Watson. 487 U.S. at 998; Moody. 422 U.S. at 425. Accordingly,
the court grants ITS's motion for summary judgment on
Massenburg's Title VII disparate impact claim.
B.
Construing Massenburg's prose complaint liberally,
Massenburg also asserts a disparate treatment claim under Title
VII.2 Title VII prohibits employers from refusing to hire any
person because oftheir race. See42U.S.C. §2000e-2(a)(1). A
plaintiff may establish a Title VII violation in two ways. First,
a plaintiff may demonstrate through direct evidence that illegal
discrimination motivated an employees' diverse employment

15
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-44action framework established in McDonnell Douglas Com. v.
Green, 411 U.S. 792 (1973). See Hill v. Lockheed Martin
Logistics Mgmt.., Inc.., 354 F.3d 277, 284--85 (4th Cir. 2004) (en
bane), abrogated on other grounds by Univ. of Tex. Sw. Med.
Ctr. v. Nassar, 570 U.S. 338 (2013): Hunter-Rainevv. N.C.
State Univ.,No. 5:17-CV-46-D,2018 WL 1092963, at *1
(E.D.N.C. Feb. 28, 2018) (unpublished), affd, 774 F. App'x 801
(4th Cir. 2018) (per curiam) (unpublished). Massenburg lacks
direct evidence of racial discrimination and proceeds under
the McDonnell-Douglas framework. To establish a prima facie
case of discrimination in hiring, a plaintiff must show that (1) the
plaintiff is a member of a protected class, (2)the plaintiff applied
and was qualified for the position in question, (3) despite her
qualifications, the plaintiff was rejected, and (4) after her
rejection, the position remained open or was filled in a manner
giving rise to an inference of discrimination. See EEOC v. Sears
,Roebuck & Co., 243 F.3d 846, 851 (4th Cir. 2001); Brown v.
Mcl&ml, 159 F.3d 898,902 (4th Cir. 1998); Hunter-Rainev.
2018 WL 1092963, at *2.

2 To the extent
that Massenburg also asserts a disparate treatment
claim under 42 U.S.C. § 1981, the ":framework of proof for disparate
treatment claims ... is the same for actions brought under Title VII, or
[section] 1981, or both statutes." Mallory v. Booth Refrigeration Sum.lv
x,882 F.2d 908,910 (4th Cir. 1989).

If the plaintiff establishes a prima facie case, the burden
shifts to the defendant to produce evidence that the adverse
employment action was "fora legitimate, nondiscriminatory
reason." Tex. Dep't of Cmty. Affairs v. Burdine, 450 U.S.
248,254 (1981). This burden is one of production, not
persuasion. See St. Mary's Honor Ctr. v. Hicks., 509 U.S. 502,
509-11 (1993). If the defendant offers admissible evidence

16
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

(Th

App 4
-45sufficient to meet its burden of production, "the burden shifts back
to the iplaintiff to prove by a preponderance of the evidence that
the [defendant's] stated reasons were not its true reasons, but
were a pretext for discrimination." Hill. 354 F.3d at 285
(quotation omitted); see. Reevesv.SandersonPlurabine
Prods..lxic.,530U.S.133, 143 (2000);)3ursline,450U.S. at 256;
Kiag v. Rumsfield, 328 F.3d 145, 150-54 (4th Cir. 2003).
A plaintiff can prove pretext by showing that the
alleged "nondiscriminatory" explanation is unworthy of
credence or by offering other forms of circumstantial
evidence sufficiently probative of [race] discrimination."
Mereish v. Walker, 359 F.3d330, 336 (4th Cir. 2004) (quotation
omitted); see Reeves., 530 U.S. at 147. In analyzing the
record concerning pretext, the court does not sit to decide
whether the employer in fact discriminated against the
plaintiff. See: Holland v. Washington Homes, Inc.., 487F.3d
208, 215-17 (4th Cir. 2007); Hawkins v. PepsiCo., Inc.., 203
F.3d 274, 279-80 (4th Cir. 2000). Rather, the court focuses on
whether the plaintiff has raised a genuine issue of material
fact as to pretext within the meaning of Reeves and its
Fourth Circuit progeny.
An employer is entitled to summary judgment on the issue of
pretext if the employee "create[s] only a weak issue of fact as to
whether the employer's reason [is] untrue and there [is,.abundant
and uncontroverted independent evid ence that " the alleged illegal
discrimination didnot occur. Reeves. 530 U.S. at 148. Moreover,
aplaintiffs own assertions ofdiscrimination in and of themselves
are insufficient to counter substantial evidence of legitimate,
nondiscriminatory reasons foradverse employment action. ap_e_
Dockinsv. BenchmarkCommc'ns,176F.3d 745, 749(4thCir.)
1999); lskander v. Dent of the Navy., 116 F. Supp. 3d 669, 678-79
(E.D.N.C. 2015), affd, 625 F. App'x. 211 (4th Cir. 2015) (per
curiam) (unpublished). In hiring an employee or choosing
candidates to interview, an employer can lawfully select more qualified

17
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-46candidates. See Hux v. City of Ne:wort News., 451 F.3d 311, 317-18
(4th Cir. 2006).
As for Massenburg's prima facie case, Massenburg is a
member of a protected class under Title VII, and the court assumes
without deciding that Massenburg applied for the position with Lee
Air. Nonetheless, Massenburg has not established that she was
qualified for the position. Lee Air required one year of dispatcher
experience in any industry. See [D.E. 113] ,r 12; [D.E. 114-3] ,r 5.
Although Massenburg claims that White reviewed Massenburg' s
resume that listed dispatcher experience, see. '[D.E. 113],r22,
Massenburg did not include that experience on her application to
ITS. See [D.E. 113],r,r 35-39; Ex. 7 [D.E. 114-3] 16-19.
Accordingly, no rational juror could conclude that ITS knew that
Massenburg met the minimum qualifications of the position with
Lee Air when ITS decided not to refer her to Lee Air. Therefore,
viewing the evidence in the light most favorable to Massenburg, no
rational juror could find that Massenburg was qualified for the
position.
Alternatively, even assuming that Massenburg meets the
first three elements of her prima facie case, ITS did not reject
Massenburg in circumstances that permit a reasonable inference of
race discrimination. Hunt intended to refer only the three
candidates that she selected for the position with Lee Air. See
[D.E. 113]131. Of the three candidates, one was AfricanAmerican.
See id. 117. Massenburg' s allegation that Hunt stated
that Lee Air would not hire anyone with a criminal history,
by itself, does not permit an inference of race discrimination.
Thus, Massenburg has failed to establish a prima facie case.
See Hunter-Rainev. 2018 WL 1092963, at *2-3.

18
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-47Alternatively, even assuming that Massenburg established a
prim.a facie case of race discrimination, ITS had a legitimate, nondiscriminatory reason for not referring Massenburg to Lee Air:
Hunt thought three other candidates were more qualified than
Massenburg and did not intend to refer anyone else to Lee Air.
As for pretext, Massenburg speculates that "unlawful
discrimination...likely motivated" ITS. [D.E. 122] 17.
Massenburg's speculation is insufficient to show that ITS's
explanation is "unworthy of credence," and she otherwise fails to
offer evidence that raises a genuine issue of material fact
concerning pretext. Mereisb, 359 F.3d at 336; see Hux, 451 F.3d
at 317-18. Thus, viewing the evidence in the light most
favorable to Massenburg, no rational jury could find that ITS
discriminated against Massenburg based on her race.
Accordingly, the court grants ITS's motion for summary
judgment on Massenburg's disparate treatment claim.
C.
On June 11, 2018, Massenburg moved to stay any action
on ITS's motion for summary judgment pending further
discovery [D.E. 132] and filed a memorandum in support [D.E.
133]. On July 16, 2018, ITS responded in opposition [D.E. 149].
Generally, a court should grant a motion for summary judgment •
only "after adequate time for discovery." Celotex, 477 U.S. at
322; see McCrav v. Md. Dep't ofTransp.• 741 F.3d 480,483 (4th
Cir. 2014). "[S]ummary judgment [must] be refused where the
nonmoving party has not had the opportunity to
discover. "information critical to responding to a motion for
summary judgment. Anderson. 477 U.S. at 250 n. 5; see Dufau
v. Price., 703 F. App'x 164, 167 (4th Cir. 2017) (per

19
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 12 of 26

App 4
-48curiam) (unpublished). Under Rule 56(d) ofthe Federal Rules of
Civil Procedure, a district court can stay amotion for summary
judgment ifthe nonmoving party shows specifically with an affidavit
that it cannot "present facts essential to justify its opposition." Fed.
R. Civ. P. 56(d); see Pisano v. Stracb, 743 F.3d 927,931 (4th Cir.
2014); Ingle ex rel. Estate ofIngle v. Yelton, 439 F .3d 191, 195 (4th
Cir. 2006). The Fourth Circuit places "great weight" on the Rule
56(d) affidavit. Evans v. Techs. Am,lications & Serv. Co.., 80
F.3d 954, 961-62 (4th Cir. 1996).
A "court may deny a Rule 56(d) motion when the information
sought would not by itself create a genuine issue of material fact
sufficient forthe non-movant to survive summaryjudgment." Pisano.
743 F.3d at 931; see Tyree v. United States, 642 F. App'x 228, 230
(4th Cir. 2016) (per curiam) (unpublished); Poindexter v. MercedesBenz Credit Corn.. 792 F.3d 406, 411 (4th Cir. 2015); Ingle. 439 F.3d
at 195. But a court may grant the motion if 'the non movant seeks
necessary information possessed only by themovant" and has not
hada reasonable opportunity to discover the information. Pisano.
743 F.3d at 931; fee Hodgin v. UTC Fire & Sec. Ams. Corn.. 885 F.3d
243, 250 (4th Cir. 2018); Ingle, 439 at 196-97. Rule 56(d) motions are
"broadly favored" and should be granted ifnecessarytoprotect
nonmovingparties fromprematuremotions forsummary judgment.
McCray. 741 F.3d at 484; Greater Balt. Ctr. for Pregnancy Concerns,
Inc. v. Mayor & City Council of Balt., 721 F.3d 264,281 (4th Cir.
2013) (en banc).
To support her motion, Massenburg argues that the date on
which Lee Air hired Angela V. is relevant to her prima facie case. See
[D.E. 133] 2. The court rejects this argument. The date on which Lee
Air hired Angela V., by itself, does notcreate a genuine issue of
material factconcerning whether the circumstances reasonably
permit an inference of racial discrimination. Furthermore,
Massenburg already Icnowsthe identity of all three candidates

15
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 15 of 26

App 4
49referred to LeeAir, see [D.E. 113]11 15-19, and that information also
isnotmaterial to herTitle VII claims.
Finally, Massenburg didnot file a Rule 56(d) affidavit. See:
Evans. 80 F.3d at 961-62. Accordingly, the court denies
Massenburg's motion to stay.
Alternatively, Massenburg has not shown why the period
for discovery before ITS's motion for summary judgment was
insufficient. "A party requesting relief pursuant to Rule 56(d)
must demonstrate that the party has not had sufficient time to
develop information needed to oppose the Summary judgment
motion." Cookev. U.S. Bureau of Prisons, 926 F. Supp. 2d 720,725
(E.D.N.C.2013); see. .Harrods Ltd. v. Sixty Internet Domain
Names. 302 F.3d 214,244 (4th Cir. 2002). For example, if the
parties have not engaged in any discovery, then granting relief
under Rule 56(d) may be appropriate. See. e.g.. Mathis v. GEO
Gt:p., Inc.,No. 2:08-CT-21-D, 2011 WL 2899135, at *9 (E.D.N.C.
July 18, 2011) (unpublished). Massenburg, however, has had
ample opportunity to discover information essential to opposing
ITS's motion for summary judgment. SeeHodgm, 885 F.3d at 250.
In fact, Massenburg was able to conduct discovery between
November 6, 2017, and April 20, 2018, and relied on materials
obtained in discovery in opposing ITS's motion for summary
judgment. See [D.E.132] 2. Thus, the court rejects
Massenburg's Rule 56(d) motion.
III.
On March 9, 2018, Massenburg moved for leave to file a
second amended complaint [D.E. 97]. On May 15, 2018,
Magistrate Judge Numbers ordered Massenburg to file an
amended complaint that named both ITS and Lee Air as defendants
[D.E. 125]. However, Judge Numbers did not authorize any new
claims against ITS. See id. Massenburg's motion for leave to

16
Case 5:16-cv-00957-D Document176 Filed 02/04/19 Page 15 of 26

n
App 4
-50amend remained pending. On May 30, 2018, Massenburg filed a
second amended complaint against ITS and Lee Air [D.E. 128],
In her second amended complaint, Massenburg added two new
claims again st ITS, a Titl e VII retaliation claim and a claim underthe
Fair Credit Reporting Act ("FRCA"), 15 U.S.C. § 1681, et seq.
Ss_q [D.E. 97-2] 18-21. On June 14, 2018, ITS moved to strike
Massenburg's second amended complaint.
A.
Generally, a party may amend a pleading once as a
matter of course. ae Fed. R. Civ. P. 15(a)(1). In all other
cases, a party must obtain either the consent of the opposing
party or the leave of court, which the court should freely give
"when justice so requires." Fed. R. Civ. P. 15(a)(2). Under
this standard, a motion for leave to amend should be 4enied
only if it would be prejudicial to the nonmoving party, if the
moving party has acted in bad faith, or if the amendment would
be futile.See Foman v. Davis., 371 U.S. 178, 182 (1962);
Equal Rights Ctr. v. NilesBoltonAssocs.., 602 F.3d 597, 603
(4th Cir. 2010); Laber v. Harvey. 438 F.3d 404, 426 (4th
Cir. 2006) (en bane); HCMF Cor n. v. Aile!!, 238 F.3d273,
276 (4th Cir. 2001); Edwards v. City o Goldsboro, 178
F.3d231, 242 (4th Cir. 1999); Johnson v. Oroweat Foods Co.,
785 F.2d 503,509 (4th Cir. 1986).
When a party seeks to amend a pleading after a
deadline established in a scheduling order, the party first must
satisfy the good cause standard in Rule 16. Sgs Fed. R.
Civ. P. 16(b)(4); )4ourisonRugCor p. v. Parviziim, 535
F.3d295, 298 (4th Cir. 2008); Sansotta ex rel. Klaus v. Town
of NagsHeag,No. 2:1.0-CV-29-D,2011 WL3438422,at*1
(E.D.N.C.Aug. 5,2011)(unpublished). This standard "focuses

17
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 15 of 26

Am 4
-51on the timeliness ofthe amendment and the reasons for its tardy
submission; the primary consideration is the diligence ofthe
moving party." Montgomery v. Anne Arundel Ctv.. 182 F. App'x
156, 162 (4th Cir. 2006) (per curiam) (unpublished); ae.e_
Nourison Rug. 535 F.3d at 298; J-lexion Specialty Chems.. Inc.
v. Oak-Bark Cor D.. No. 7:09-CV-105-D, 2011 WL 45 7382, at
*8 (E.D.N.C. Sept. 28, 2011) (unpublished). "Good cause exists
when a party's reasonable diligence before the amendment
deadline would not have resulted in the discovery of the
evidence supporting a proposed amendment." Sansotta. 2011
WL 3438422, at *2; see United States v. Gocl-vviri; 247
F.R.D. 503, 506 (E.D.N.C. 2007). A scheduling order is "not
a frivolous piece of paper, idly entered, which can be cavalierly
disregarded," and a movant "must demonstrate that the reasons
for the tardiness of his motion justify a departure from" the
scheduling order. Rassoull v. Maximus. Inc.., 209 F.R.D. 372,
373-74 (D. Md. 2002) (quotation omitted). If a party meets the
Rule 16(b) standard, then the party must also satisfy the Rule
15(a)(2) standard. See Cook v Howard., 484 F. App'x 805,
814--15 (4th Cir. 2012) (per curiam) (unpublished); Hexion
Specialty Chems. Inc.., 2011 WL 4527382, at *8; Godwin. 247
F.R.D. at 506.
On March 9, 2018, Massenburg moved for leave to file
a second amended complaint [D.E. 97]. This court's
scheduling order of November 6, 2017, required the parties to
move to amend all pleadings "promptly after the information
giving rise to the motion bec[ame] known to the party." [D.E.
77] 2. The order further stated that "[a]ny such motion filed
after December 15, 2017, must meet the standards of [Rules]
15 and 16." Id. At 3. Accordingly, Massenburg' s motion for
leave to amend must meet the standards of both Rule 16(b)
and Rule 15(a)(2). See Cook., 484 F. App'x at 814-15.

18
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 15 of 26

App 4
-52B.
As for Massenburg's Title VII retaliation claim,
Massenburg's second amended complaint contains
allegations concerning her EEOC charge. Massenburg filed
her EEOC charge on January 2, 2015, and she contends that
ITS retaliated against her for filing that charge by not
cooperating with the EEOC. See [D.E. 97-2] 19.
Massenburg, however, knew of ITS's alleged non-cooperation
with the EEOC well before November 6, 2017. Therefore,
Massenburg has not met Rule 16'sgood cause standard, and
the court denies Massenburg's motion to file a second
amended complaint. Alternatively, Massenburg cannot
satisfy Rule 15 because her motion to amend is futile. A
district court may deny a plaintiffs request for leave to amend
the complaint when the amendment would be futile. See
Forn 371U. S. at 182; NewportNews Holdings Corp. v.
Virtual City Vision., Inc., 650 F.3d 423,439 (4th Cir. 2011).
An amendment is futile if the amended complaint would
fail to state a claim upon which relief can be granted. See:
Van Leer v. Deutsche Bank Sec.,Inc. 479 F. App'x 475,479
(4th Cir. 2012) (unpublished); United States ex rel. Wilson.
Kellogg Brown & Root. Inc.. 525 F.3d 370,375 (4th Cir. 2008).
Whether a complaint states a claim upon whichrelief can be
granted depends on whether the complaint is legally and factually
sufficient. 5gg Ashcroftv. Iqbal, 556 U.S. 662, 677-:--78 (2009);
Bell Atl. Corp. v. Twombly. 550 U.S. 544, 562-63,570 (2007);
Giarratano v. Johnso!1, 521 F.3d 298,302 (4th Cir. 2008);
accord. Erickson v. Pardus., 551 U.S. 89, 93-94 (2007) (per
curiam).

16
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 16 of 26

App 4
-53The standard used to evaluate the sufficiency of a
pleading is flexible, "and a pro se complaint, however inartfully
pleaded, must beheld to less stringent standards than formal
pleadings drafted by lawyers." Frickson, 551 U. S. at 94 (emphasis
and quotation omitted). Erickson,however, does not undermine
the "requirement that a pleading contain 'more than labels and
conclusions."' Giarratano, 521 F.3d at 304 n.5 (quoting
Twombly, 550 U.S. at 555); see Iqbal, 556 U.S. at 678-79;
Coleman v. Md. Court of A lineals, 626 F.3d 187, 190 (4th Cir.
2010), affd, 566 U.S. 30 (2012); Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc., 591 F.3d 250, 255-56 (4th Cir. 2009);
Francis v. Giacornelli, 588 F.3d 186,193 (4th Cir. 2009).
Although a court must liberally construe a pro se plaintiffs
allegations, it "cannot ignore a clear failure to allege facts" that
set forth a cognizable claim. Johnson v. BAC Home Loans
Servicing, LP, 867 F. Supp. 2d 766, 776 (E.D.N.C. 2011); see
Giarratano 521 F.3d at 304 n.5. As for Massenburgl s retaliation
claim, Massenburg lacks direct ev idence of retaliation. Thus,
she proceeds under the McDonnell-Douglas framework. To
establish a prima facie case of retaliation, Massenburg must
show that (1) she engaged in protected activity, (2) the
employer took an action against her that a reasonable
employee would find materially adverse, and (3) a causal
connection existed between the protected activity and the
adverse action. See, e.g.• Burlington N. & Santa Fe Ry. v.
White., 548 U.S. 53, 67-70 (2006); peMasters v. Carilion
796 F.3d 409, 416 (4th Cir. 2015; Foster v. Univ. of Md.-E.
Shore, 787 F:3d 243,250 (4th Cir. 2015); Bover-Liberto v.
Fontainebleau Corp.. 786 F.3d 264,271 (4th Cir. 2015) (en
banc); Balas v. Huntington Ingalls Indus..inc.„711F.3d401,
410(4thCir. 2013); Holland. 487 F3d at218;

17
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 17 of 26

App 4
-54Price v. Thompson, 380 F.3d 209, 212 (4th Cir. 2004),
abrogated on other grounds by Foster. 787 F.3d at 299; Bryant.
v. AikenReg'l Med. Ctrs. Inc.., 333 F.3d 536,543 (4th Cir.
2003); Spriggs v. Diamond Auto Glass., 242 F.3d 179, 190
(4th Cir. 2001).
Under Title VII, a plaintiff engages in protected
activity when she "oppose[s] any practice made an unlawful
employment practice by [Title VII]" or because she makes a
charge, testifies, assists, or participates "in any manner in an
investigation, proceeding, or hearing under [Title VII]."
42 U.S.C. § 2000e-3(a); see Clausen. v. Bayer Corp.. No. 5:15CV-50-BO, 2015 WL 5146704, at *5 (E.D.N.C. Sept. 1, 2015)
(unpublished). Protected activities include using "informal
grievance procedures as well as staging informal protests and
voicing one's opinions in order to bring attention to an employer's
discriminatory activities." Laughlin v. Metro. Wash. Air.ports
Auth. 149F.3d253, 259 (4th Cir. 1998); see Chang Lim v.
Azar. 310 F. Supp. 3d 588, 603--04 (D. Md. 2018). A plaintiff
must show that the employment practices that she opposed were
either actually unlawful under Title VII or that she reasonably
believed that the employment practices were unlawful. See
Clark Cty. Sch. Dist. v. Breeden, 532 U.S. 20,271 (2001) (per
curiam); DeMasters. 796 F.3d at 417; Boyer-Liberto, 786
F.3dat282; Bonds v. Leavitt., 629 F.3d 369,384 (4th Cir. 2011);
EEOC v. Navy Fed. Credit Union., 424 F.3d397, 406 (4th Cir.
2005); Chang Lim, 310 F. Supp. 3dat603--04. An adverse
employment action includes a "discriminatory act that adversely
affects the terms, conditions, or benefits of the plaintiffs
employment" Mitchell v. N.C. Div. ofEmp't Sec., 76 F.
Supp. 3d 620,625 (E.D.N.C. 2014) (alteration omitted), aff d, 599
F. App'x 517 (4th Cir. 2015) (per curiam) (unpublished); leg_
Burlington N. & Santa Fe Rv., 548 U.S. at 68, 70;

18
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 18 of 26

App 4
-55Holland. 487 F.3d at 219. A plaintiff meets this element if the
alleged action "might have dissuaded a reasonable worker from
making or supporting a charge of discrimination." Burlington N.
& Santa Fe Rv., 48 U.S. at 68 (quotation omitted); see Holley
v. N.C. Dep't of Admin., 846 F. Supp. 2d 416,442 (E.D.N.C.
2012). "There must be some significant detrimental effect" to
the plaintiff. Holland, 487 F.3d at 219.
As for Massenburg's prima facie case, Massenburg
engaged in protected activity by filing an EEOC charge on
January 2,2015. See [D.E.124-1]; [D.E. 97-1] 4. Massenburg
alleges that ITS took a materially adverse action against her by
refusing to cooperate with the EEOC's investigation.
50. [D.E. 97-2] 19. However, ITS's alleged failuie to cooperate
with the EEOC's investigation, ' even if true, would not
dissuade a reasonable worker from filing a discrimination
charge. Moreover, Massenburg has failed to plausibly allege
causation between her filing the charge and the allegedly
adverse action. Accordingly, Massenburg has failed to plausibly
allege retaliation in violation of Title VII, and the court denies
as futile her motion to amend.
C.
As for . Massenburg's FCRA claim, Massenburg
alleges that, nearly three years after she submitted her online
application to ITS, ITS "r[an] her background and disbursed
[her] personal information without [her] knowledge" by
"furnish[ing] [her] criminal background report to the
EEOC." [D.E. 97-2] 21.3 Massenburg alleges that she had no
notice of the disclosure, depriving her of her rights under
FCRA. j. Massenburg has failed to meet Rule 16's good
cause standard. Thus, the court denies Massenburg' s

n
App 4
-56motion to amend her complaint to add an FCRA claim.
Alternatively, Massenburg fails to plausibly allege an FCRA
claim. Congress enacted FCRA to "ensure fair and accurate
credit reporting, promote efficiency in the banking system,
and protect consumer privacy." Safeco Ins. Co. of Am. v.
Burr., 551 U.S. 47, 52 (2007); see Saunders v. Branch.
Banking & Tr. Co. of Va.. 526 F.3d 142, 147 (4th Cir. 2008).
FCRA applies only if the information that ITS allegedly
provided to the EEOC constitutes a "consumer report" within
the meaning of 15 U.S.C. § 1681a(d)(1). See, ,15U.S.C. §§
1681b, 1681d, 1681m;Benzingv.Tharrington-Smith,LLP,
No. 5:10-CV-533-F, 2012 WL 1015957, at *2 (E.D.N.C. Mar.
23, 2012) (unpublished), affd, 485 F. App'x 624 (4th Cir.
2012) (per curiam) (unpublished); cf. Spokeo. Inc. v. Robins.,
136 S. Ct. 1540, 1545 (2016). A consumer report includes
"any written, oral, or other communication of any information
by a consumer reporting agency bearing on a consumer's
credit worthiness, credit standing, credit capacity, character,
general reputation, personal characteristics, or mode of living
which is used or expected to be used" for purposes enumerated
in the statute, including employment purposes. § 1681a(d)(1).
Massenburg does not allege any facts concerning the purpose
of the alleged disclosure. Additionally, Massenburg does not
allege any facts conceining whether ITS is a "consumer
reporting agency" within the meaning of FRCA. au 15
U.S.C. § 1681a(f). Accordingly, Massenburg fails to plausibly
allege an FRCA claim. Thus, the court denies as futile
Massenburg' s proposed FCRA claim.

App 4
-57D.
3 It is not clear that ITS
did so. Massenburg cites as evidence a
FOIA request, which she filed with the EEOC, indicating that the
EEOC withheld some information from disclosure because releasing
the information could constitute an "unwarranted invasion of personal
privacy." [D.E. 97- 29] 5, 10. The document does not state what
information the EEOC withheld.
Alternatively, the new claims against ITS fall outside
the scope of the court's order of May 15, 2018, granting
Massenburg leave to file an amended complaint that named
Lee Air as a defendant [D.E. 125]. Although Massenburg
listed the Title VII retaliation and FRCA claims in her proposed
second amended complaint, Massenburg did not obtain leave
to amend her pleadings to add these new claims against ITS
before filing a second amended complaint.
A court may strike "an insufficient defense or any
redundant, immaterial, impertinent, or scandalous matter"
from a pleading. Fed. R. Civ. P. 12(f). If a plaintiff files an
amended pleading without securing leave to amend, a court
can strike the amended pleading. See Laschkewitsch v.
Lincoln Life & Annuity Distribs., Inc., No.. 5 : 13 -CV-315BO, 2014 WL 715420, at *1 (E.D.N.C. Feb. 24, 2014)
(unpublished). Although Massenburg had leave to amend her
complaint to add Lee Air as a defendant, she did not have
leave to amend her complaint to add new claims against ITS.
aes [D.E. 125] 8. Thus, the court grants ITS's motion to strike
the Title VII retaliation and FCRA claims against it in
Massenburg's second amended complaint.

App 4
-58IV.
On July 27, 2018, Lee Air moved to dismiss
Massenburg's second amended complaint for lack of
jurisdiction and failure to state a claim. A motion to dismiss
under Rule 12(b)(1) of the Federal Rule of Civil Procedure
tests subject-matter jurisdiction, which is "the courts'
statutory or constitutional power to adjudicate the case."
Steel Co. v. Citizens for a Better Env't, 523 U.S. 83, 89
(1998) (emphasis omitted); see Holloway v. Pagan River
Dockside Seafood, Inc.., 669 F.3d 448, 453 (4th Cir. 2012).
"[T]he party invoking federal jurisdiction bears the burden of
establishing its existence." • Steel Co. 523 U.S. at 104; see.,
' Evans v. B.F. Perkins Co., 166 F.3d 642,647 (4th Cir.
1999). In considering a motion to dismiss under Rule 12(b)(1),
the court may consider evidence outside of the pleadings
without converting the motion into one for summary
judgment. See. Richmond, Fredericksburg& Potomac R.R,
v. United States, 945 F.2d 765, 768 (4th Cir. 1991). A federal
court "must determine that it has subject-matter jurisdiction
over the case before it can pass on the merits of that case."
Constantine v. Rectors & Visitors of George Mason Univ.,
411 F.3d 474, 479-80 (4th Cir. 2005).
A district court has subject-matter jurisdiction over a Title
VII claim only if the plaintiff exhausted administrative
remedies beforefiling suit. See., 'Sydnory.FairfaxCty., 681
F.3d 591, 593-94 (4th Cir. 2012); Jones v. Calvert Grp.. Ltd.,
551 F.3d 297, 300 (4th Cir. 2009); Tagirova v. Elizabeth City
State Uv., No. 2:16-CV-70-D, 2017 WL4019516, at *1
(E.D.N.C. Sept. 11,2017) (unpublished); Webb v. N.C. Dep't of
Crime Control & Pub. Safety. 658 F. Supp. 2d 700, 707-09
(E.D.N.C. 2009).

21
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 22 of 26

App 4
-59Title VII requires plaintiffs to exhaust administrative .
remedies by filing a charge with the EEOC before initiating
litigation in federal court. See Svndor, 681 F.3d at 593. This
requirement is an "integral part of the Title VII enforcement
scheme."
(quotation omitted). Under Title VII, a charge must
be filed within 180 days ofthe alleged unlawful employment
practice. See 42 U.S.C. § 2000e-5(e)(1); Jones, 551 F.3d at 300.
A failure to file a charge with the EEOC in a timely fashion is
not jurisdictional and is subject to waiver, estoppel, and
equitable tolling. Sag Zipes v. Trans World Airlines, Inc.., 455
U.S. 385, 393 (1982). Nonetheless, a failure to exhaust
administrative remedies before filing suit in federal court is
jurisdictional. See Jones., 551 F.3d at 300; Williams v. N.C.
Admin. Office of Courts., No. 4:18-CV-63-D, 2018 WL
6345367, at *2-3 (E.D.N.C. Dec. 4, 2018) (unpublished). 4The
contents of a plaintiffs EEOC charge determine the scope of
a plaintiffs right to maintain a Title VII claim in federal court.
See. ,Hentosh v. OW Dominion Univ., 767 F.3d 413,416 (4th
Cir. 2014); Johnson v. PittCty. Bd. ofEduc., No. 4:16-CV-214D,2017 WL2304211, at *3 (E.D.N.C. May 25, 2017)
(unpublished). If a plaintiffs claims in her complaint are
"reasonably related to her EEOC charge and can be expected to
follow from a reasonable administrative investigation," the court
retains jurisdiction over the claims even if a plaintiff failed
to file an EEOC charge before filing suit. Sydnor, 681 F.3d at
594; see Smith v. First Union Nat'l Bank, 202 F.3d 234,237 (4th
Cir. 2000); Fvans, 80 F.3d at 963; Johnson v. SecTek, Inc.., No.
ELH-13-3798, 2015 WL 502963, at *4 (D. Md. Feb. 4, 2015)
(unpublished); Allen v. CityofRaleimNo. 5:13-CV-522-D, 2014
WL 840735, at *2 (E.D.N.C. Mar. 4, 2014) (unpublished). In
contrast, a claim exceeds the scope of an EEOC charge if the
claim references different actors, different violations, or
different time frames than those listed in the EEOC charge. aes_

22
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 22 of 26 .

App 4
-60Syndor, 681 F.3d at 593; Chacko v. Patuxent Inst.. 429 F.3d
505,506 (4th Cir. 2005).
As for Massenburg's Title VII claims against Lee Air,
Massenburg's EEOC charge of January 2, 2015, only names
ITS. See [D.E. 7-1]. Because it does not name Lee Air, this
charge does not satisfy Title Mrs exhaustion requirement.
On. September 19, 2018, Massenburg filed a second charge
of discrimination and retaliation with the EEOC and named
both ITS and Lee Air. See [D.E. 168-4].
However, Massenburg filed this charge after she added Lee
Air as a defendant to this case. Thus, the EEOC charge does not
satisfy the exhaustion requirement. See Smith. 202 F.3d at 247.
Accordingly, the court lacks subject-matter jurisdiction over
Massenburg' s Title VII claims against Lee Air.
4 The Supreme Court has granted certiorari to decide
whether Title VH's administrative exhaustion requirement is
jurisdictional. See Davis v. FortBendCV.„ 893 F.3d300 (5th Cir.
2018), cert. granted., No. 18-525, 2019 WL 166880 (U.S. Jan. 11,
2019).
Massenburg also alleges a state law violation of the North
Carolina Equal Employment Protection Act ("the NCEEPA"),
N.C. Gen. Stat.§ 143-422.2, based on race. 50 [D.E. 128] 1. In
relevant part, the NCEEPA states that it is the "public policy of
[North Carolina] to protect and safeguard the right and
opportunity of all persons to seek, obtain and hold employment
without discrimination or abridgment on account ofrace, religion,
color, national origin, age, sex or handicap by employers which
regularly employ 15 or more employees," N.C. Gen. Stat. § 143422.2(a).

23
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 22 of 26

App 4
-61North Carolina law does not recognize a private cause of
action under the NCEEPA. See: Smith, 202 F.3d at 247;
Bratcher v. Phann. Prod. Dev., Inc.., 545 F. Supp. 2d 533,
544 (E.D.N.C. 2008); Mullis v. Mechs. & Farmers Bank
994 F. Supp. 680, 687 (M.D.N.C. 1997).
Moreover, North Carolina does not recognize a wrongful
failure to hire claim. See Schulze v. Meritor Auto.. Inc.., 13
F. App'x 89, 90 (4th Cir. 2001) (per curiam) (unpublished);
Bufford v. Centuzylink. 759 F. Supp. 2d 707, 708 (E.D.N. C.
2010). Thus, Massenburg has not plausibly alleged a claim
under the NCEEPA against Lee Air. Accordingly, the court
dismisses the claim.
V.
On April 18, 2018, Massenburg moved to extend the deadline for
dispositive motions in the court's November 6, 2017, scheduling
order pursuant to Rule 16(b)(4) of the Federal Rule of Civil
Procedure [D.E. 110]. Under the scheduling order, discovery
closed on March 23, 2018, and the deadline for dispositive
motions was April 20, 2018. Massenburg proposes that the new
deadline be 45 days after the court has ruled on all pending
motions. See id. at 1.
In support, Massenburg argues that she is confused about
whether her Title VII retaliation and FRCA claims are properly
before the court and that she is awaiting further discovery. See
bd at 1-2. Rule 16(b)(4) requires a movant to demonstrate good
cause for a district court to modify a scheduling order. See Fed.
R. Civ. P. 16(b)(4).

24
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 22 of 26

n
App 4
-62This standard "requires the party seeking relief to
show that the deadlines cannot reasonably be met despite the
party's diligence." Cook., 484 F. App'x at 815 (alteration and
quotation omitted). The "primary consideration is the
diligence of the moving party." Montgomery, 182 F. App'x at
162; see Opsitnick v. Crumpler, No. 5-13-CV-835-D, 2015
WL 12860285, at *1 (E.D.N.C. Oct. 19, 2015)
(unpublished). A litigant does not establish good cause if the
district court "concludes that the party seeking relief . . . has
not acted diligently in compliance" with a scheduling order.
McMillan v. Cumberland Ctv. Bd. of Educ., 734 F. App'x
836,816 (4th Cir. 2018)(unpublished).
Massenburg has failed to show why she was unable to
file a dispositive motion by the scheduling order's deadline.
Thus, the court denies Massenburg's motion to amend the
scheduling order.
VI.
On January 2, 2019, Massenburg filed a document
entitled "Supplemental claims to DE 168- 2 and 3" [D.E.
171]. On January 16, 2019, defendants moved to strike
this filing [D.E. 173].
Under the Federal Rules of Civil Procedure, a court may
"strike from a pleading an insufficient defendant or any
redundant, immaterial, impertinent, or scandalous matter." Fed. R.
Civ. P. 12(t).

23
Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 23 of 26

App 4
-64file a motion for costs in accordance with the Federal Rules of
Civil Procedure and this court's local rules. The clerk shall close
the case.
SO ORDERED. This 4th day of February 2019.

scv. aA

Jig C. DEVER III

United States District Judge

Case 5:16-cv-00957-D Document 176 Filed 02/04/19 Page 24 of 26

Additional material
from this filing is
available in the
Clerk's Office.

